                             Testimony for the
                             Special Committee on Aging
                             U.S. Senate




For Release at 2:00 PM EST
Wednesday May 20, 2009
                             No Guarantees:
                             As Pension Plans Crumble,
                             can PBGC Deliver?

                              Testimony of

                              Rebecca Anne Batts

                              Inspector General
                              Pension Benefit Guaranty Corporation




                              May 20, 2009
                         Testimony of Rebecca Anne Batts
                                Inspector General
        Pension Benefit Guaranty Corporation – Office of Inspector General
                           Special Committee on Aging
                               United States Senate
                                   May 20, 2009

Good afternoon Chairman Kohl, Ranking Member Martinez, and other Committee
Members. My name is Rebecca Anne Batts and I am the Inspector General of the
Pension Benefit Guaranty Corporation (PBGC), Office of Inspector General (OIG).

Thank you for the opportunity to testify today about the challenges that the Pension
Benefit Guaranty Corporation (PBGC) is facing. These challenges affect important
functions of the Corporation. On one hand, PBGC and its Board must deal with the need
to make decisions about how to implement PBGC’s investment policy, to include the
possibility that certain decisions may need to be reconsidered. Additionally, PBGC may
be called to address an unprecedented influx of large defined benefit pension plans, if
companies can no longer afford to maintain the plans. We appreciate your interest in
these issues and your request that we monitor PBGC’s preparedness strategy. We have
been working with PBGC officials to support and oversee their efforts and are in the
process of assembling a team to review the steps that PBGC management is taking to
prepare for the coming months and years.

Both the President and Congress have noted that the current economic crisis is the result
of many years of irresponsibility, both in government and in the private sector. As the
guarantor of pensions for many of the Nation’s workers, PBGC will certainly be affected
by the trends and events that shape our economic future. We appreciate this Committee’s
strong interest in vigilant oversight of the PBGC’s investment activities and in its
readiness to face the consequences of defined benefit plans on the brink of financial
distress, with this hearing as just one of the many indicators of that support.

We realize that PBGC faces enormous challenges and note the commitment of the Acting
Director, PBGC’s senior leadership, and the PBGC Board to the success of PBGC’s
investment program and preparedness initiatives. PBGC’s leadership has been proactive
on several fronts. For example, PBGC’s senior leadership has been engaged in
contingency planning for a potential wave of pension plan trusteeships in the near future.
The focus is on ensuring that PBGC’s core functions -- insurance programs and benefits
administration -- have the necessary resources (including staff, budget, and information
technology) to address the incoming workload. PBGC staff has briefed us on initial
assessments of the potential impact on PBGC if pension plans of various sizes terminate
without sufficient assets to pay future benefits and PBGC becomes responsible for those
benefits. Additionally, PBGC consistently monitors the conditions of multiple high-
profile industrial sectors including retail, newspaper, pharmaceutical and auto.
Our statement today focuses on the specific challenges PBGC faces as it prepares for the
future in a turbulent financial environment and on our strategy to promote integrity and
support PBGC in its readiness efforts. Specifically:

      •   PBGC must continue to work with its Board to determine how to ensure
          integrity as it contracts for investment services. Earlier this month, we
          reported on serious questions relating to the integrity of the procurement process
          for Strategic Partnership contracts to manage $2.5 billion in PBGC assets. We
          identified actions that PBGC and its Board should take to foster impartiality in
          future procurement activities and compliance with existing contracting laws and
          regulations (see attachment for full report.) 1 This interim report was issued as
          part of our ongoing monitoring of PBGC’s plans for implementing the new
          investment policy and included our assessment of allegations brought to our
          attention by a whistleblower. Based on our analysis, we concluded that the
          former PBGC Director, Charles E.F. Mr. Millard, had inappropriate contacts with
          bidders for the Strategic Partnership contracts and took actions incompatible with
          his role as Director. We recommended a Board-level decision as to whether the
          actions of the former Director cast enough doubt about the fairness, integrity, and
          openness of the procurement to warrant cancellation of the contracts. We also
          recommended the establishment of a Board-imposed requirement that future
          PBGC Directors maintain appropriate separation of duties, with special care given
          to situations that are likely to create the appearance of improper influence or bias.
          The Board responded quickly and appropriately to our recommendations.

      •   Our audit and investigative initiatives must continue to examine areas that
          present the greatest risks and promptly notify PBGC, the Board, and
          Congress of actions needed to ensure effective governance and readiness for
          whatever the future brings. We have begun working aggressively to position
          our office to handle the potential increase in oversight workload associated with
          current economic conditions. We initiated a three-phase approach to conducting
          this work. Earlier this month, in anticipation of changes that may come if
          companies can no longer afford their defined benefit plans and in response to a
          request from your committee, we initiated a review to assess PBGC actions to
          prepare for possible influx of defined pension plans with large numbers of
          participants in the near future. To meet this objective we will examine: (1) the
          steps PBGC management is taking to prepare for a possible increase in the
          number of terminated plans; (2) the extent to which an increase in the number of
          terminated plans presents challenges for PBGC management in both termination
          and benefit delivery processes; (3) the effectiveness of PBGC processes for
          identifying, prioritizing and obtaining needed resources, such as human capital;
          and (4) the steps PBGC management is taking to ensure continued customer
          service and effective Field Benefit Administration offices in the event of

1
    OIG Report No. AUD-2009-5/PA-08-63-1, “Former Director’s Involvement in Contracting for
    Investment Services Blurs Roles and Raises Fairness Issues,” May 15, 2009. OIG reports and
    testimonies are available on our website: www.oig.pbgc.gov.



                                                                                                 Page 3
       termination increases. We plan to fast-track the most time-sensitive results of our
       work to ensure we provide PBGC, the Board, and Congress with timely and
       relevant information.

       Phase 2 of our strategy is already underway and involves a systematic review of
       the strengths and weaknesses of PBGC’s approach for executing the new
       investment policy and an assessment of the effectiveness of PBGC’s plan to
       identify and manage key risks. We plan to begin reporting the results of this
       effort this summer through a series of advisories to PBGC. Phase 3 is a longer-
       term initiative in which we will drill down on high-risk areas that emerge as a
       result of our ongoing review.

I will now discuss these issues in further detail.

PBGC MUST CONTINUE TO WORK WITH ITS BOARD TO ENSURE
INTEGRITY IN CONTRACTING FOR INVESTMENT SERVICES

Earlier this month, we issued an interim report (attached) as part of our ongoing review of
the PBGC’s implementation of its new Investment Policy. Our report discussed our
findings and recommendations to ensure PBGC develops and implements internal
controls to foster impartiality in future procurement activities and compliance with
existing contracting laws and regulations. Further, our report recommended that the
Board consider whether the inappropriate actions taken by the former PBGC Director had
caused so much doubt about the fairness, integrity, and openness of the Strategic
Partnership that the contracts should be cancelled.

The PBGC Board provided a positive response to our report and has committed to take
appropriate corrective actions.

The actions taken by the former Director constitute a serious challenge to contracting
integrity at PBGC. The former Director:

   1. Assumed de facto responsibility for key procurement actions, violating the
      principle of separation of duties and rendering PBGC vulnerable to allegations of
      bias, improper influence, or conflict of interest.

   2. Consulted with potential bidders about the impact of certain mandatory
      requirements on them and on others, as well as about proposed questions for
      PBGC procurement officials to ask during the bidders’ oral presentations.

   3. Had inappropriate contact with bidders during the “blackout” period when such
      contact was forbidden.

   4. Sought employment assistance from an executive employed by one the winning
      bidders for a Strategic Partnership contract to manage $700 million in private
      equity.



                                                                                    Page 4
To address the serious issues discussed in this report, we recommended that the PBGC
Board require future Directors to ensure appropriate separation of duties, to include
refraining from service on technical evaluation panels and other de facto procurement
activities, giving special attention to situations that are likely to create the appearance of
improper influence or bias. The Board agreed with our recommendation and advised that
it will be working with the PBGC to develop appropriate guidelines.

Today, I will highlight a few of the key areas that led to the need for action.

1. The Former Director Assumed De Facto Responsibility for
   Key Procurement Actions.

As part of his job, the former PBGC Director represented the Corporation before the
investment community in person, traveling frequently to New York and maintaining
continual telephone contact with major investment firms. However, at the same time, he
inappropriately assumed de facto responsibility for key procurement activities necessary
to implement the new investment policy, including evaluating many of the same
investment firms with which he routinely dealt. The former Director’s contact with
bidders allowed some, but not all, to have frequent and in-depth access to a key
procurement decision-maker. Further, the continuing contact provided an opportunity for
some, but not all, bidders to enhance the former Director’s level of confidence in their
firms’ knowledge and skills.

Federal Regulations Establish High Standards for Procurement actions .

Government-wide ethics rules are founded on fourteen principles, one of which requires
all federal employees “to avoid any actions creating the appearance that they are violating
the law.” 2 In its own ethics handbook “Public Service is a Public Trust,” PBGC sets
forth these guiding principles of ethical conduct. The discussion about “Impartiality
Issues” is written simply and lists examples of circumstances that could call impartiality
into question; specifically noted is the evaluation of bids submitted by friends.

PBGC’s procurement process is also subject to a variety of implementing guidance,
including the Federal Acquisition Regulation (FAR), intended to ensure impartiality in
contracting decisions. Examples include:

       •   “An essential consideration in every aspect of the System is maintaining the
           public’s trust. Not only must the System have integrity, but the actions of each
           member of the Team must reflect integrity, fairness, and openness …” 3

      •    “Government business shall be conducted in a manner above reproach and, except
           as authorized by statute or regulation, with complete impartiality and with

2
    5 C.F.R. § 2635.101(b)(14).
3
    FAR § 1.102-2(c)(1).


                                                                                       Page 5
          preferential treatment for none. Transactions relating to the expenditure of public
          funds require the highest degree of public trust and an impeccable standard of
          conduct. The general rule is to avoid strictly any conflict of interest or even the
          appearance of a conflict of interest in Government-contractor relationships.
          While many Federal laws and regulations place restrictions on the actions of
          Government personnel, their official conduct must, in addition, be such that they
          would have no reluctance to make a full public disclosure of their actions.” 4

The former Director was intimately involved in the day-to-day details of contracts used to
develop and implement the new investment policy.

Despite warnings from his own advisors about the wisdom of doing so, the former
Director actively participated in PBGC’s procurement of investment services contracts.
Throughout his tenure, he enmeshed himself in the evaluative process. Examples
include:

      •   Serving on a three-member evaluation panel, with two subordinate employees, to
          select Rocaton to assist in developing the new investment policy.
      •   Choosing evaluation panel members, and serving on the evaluation panel, with
          two subordinate employees, to select Plexus to provide advisory services for the
          development of transition management principles.
      •   Choosing evaluation panel members and serving on the evaluation panel, with
          two subordinate employees, to select Ennis Knupp as advisor for the upcoming
          strategic partnership procurement.
      •   Helping draft the Statement of Objectives for the Strategic Partnership contracts,
          including the 13 mandatory requirements; leading the bidders’ conference;
          helping draft the evaluation factors through which the winning firms would be
          selected; and serving on the evaluation panel to select the winning bidders.

2. The Former Director Consulted Directly with Some Firms Prior to
   Issuance of the RFP.

The former Director interacted with some, but not all bidders, in a manner that failed to
reflect integrity, fairness, and openness, as required by the FAR 5 and by government
ethics regulations. His communications created, at a minimum, the appearance that
bidders with whom he interacted would have an unfair advantage in seeking a Strategic
Partnership with PBGC.

In the month preceding the issuance of the Strategic Partnership RFP, the former Director
engaged in a two-day email exchange with a BlackRock Managing Director. 6 The

4
    FAR § 3.101-1.
5
    FAR § 1.102-2(c)(1).
6
    The Managing Director was noted as a key person on the Strategic Partnership contract for the
    management of up to $900 million in real estate and private equity.


                                                                                                    Page 6
discussion centered on the standards to be used to evaluate bidders for the PBGC
Strategic Partnerships. The emails include discussion of getting together in person and
by phone.

The former Director asked the BlackRock executive about the “minimum number of
employees a Strategic Partner should have globally.” After the executive failed to give a
definite answer, the former Director explained the reason for needing a specific number:
“… I think I need a cognizable cutoff figure so that we can winnow the field easily.”
[Emphasis added.]

In response the BlackRock executive wrote, “I will be self serving and say overall firm
shld have at least 5,000 total employees. Getting more specific on global now, I wld
suggest at least 25 pct of total employees (and a minimum of 250 in total) shld be in
non-US offices. I added the parenthetical to eliminate the 100 person boutique firm
with 30 people overseas from consideration.” [Emphasis added.]

At that point the former Director responded, “Any idea who that includes or excludes?”
Clearly, the purpose of the two-day email exchange was to allow the establishment of a
specific criteria that would “winnow the field” and “eliminate [certain firms] from
consideration.” This exchange of emails is inconsistent with the former Director’s
responsibility as set forth in the FAR. “Government business shall be conducted in a
manner above reproach and … with complete impartiality and with preferential treatment
for none.” 7

At the August 8 bidders’ conference, the potential bidders who attended were reminded
of the RFP’s mandatory “firm size” requirement and that no firm should submit a
proposal for the Strategic Partnership work unless it had thousands of employees. To
their credit, PBGC senior leaders, including the Procurement Department Director, the
Procurement Deputy Director, and the PBGC Treasurer,8 questioned the criteria for size,
as established in the RFP. According to the Deputy Director of Procurement, “Requiring
employees numbering in the thousands may be unsupportable. If we hide from
[answering a question raised by a bidder about minimum size], it may look as if we have
no rationale to support the requirement….” Mr. Millard addressed the issue in an email
stating, “I don’t see why we need change rfp. Says thousands, means thousands.”

3. The Former Director Had Inappropriate Contact with Bidders
   During the “Blackout” Period.

Although he was aware that he was prohibited from speaking with representatives of the
firms that were attempting to become PBGC’s Strategic Partners, the former Director
communicated with winning bidders by phone and by email during the time when
proposals were being evaluated. 9 Ordinarily, communications between the PBGC

7
  FAR § 1.102-2(e)(1)
8
  The Treasurer also served as Depurty Director of the Financial Operations Division.
9
  Of the 16 firms submitting bids, calls were logged from the former Director’s phones with 8 firms during
   the “blackout” period, including calls with each of the successful bidders.


                                                                                                   Page 7
Director and executives of financial management firms would not be prohibited.
However, in this case, because the former Director had been so involved in the details of
the procurement process and was serving with subordinate employees on the technical
evaluation panel, such contact violated regulations intended to ensure the integrity of the
procurement process.

As an example of the communications during the blackout period, we found ten phone
calls and at least five emails between the former Director and a managing director of
JPMorgan. The emails show that the former Director was attempting to reach the
JPMorgan executive by phone. The subject line of the emails was “Can I reac” [reach].
The JPMorgan executive replied with details of his hotel room number and telephone, his
mobile phone number, and the phone number of his apartment, as well as times when he
would be available. We were unable to determine conclusively whether the former
Director and the JPMorgan executive ever actually spoke by phone and we do not have
specific information about the topics the former Director planned to discuss. However,
the day that winners of the Strategic Partnerships were selected, the email string
continued. The subject line was changed from “Can I reac” [reach] to “Strat
partnerships” and the message sent by the former Director was “U guys get 900 m. 600
real estate 300 private equity.” We concluded that the email message and the subject line
provide a strong indication that the strategic partnerships were to be the topic of the
phone conversation between the former Director and the JPMorgan executive.

During January 2009, as part of our audit, we interviewed the former Director about
communications with bidders during the “blackout” period. Initially, he stated that he
had been careful not to talk to any of the potential bidders during the period that the
Strategic Partnership was “on the street” for bid. He also stated that he did not recall
having any conversations with offerors during the procurement. OIG professional staff
then showed the former Director his own telephone logs. At that time, he amended his
prior statement and commented that, if he had spoken with an offeror, he definitely would
not have discussed the Strategic Partnership procurement.

The former Director’s explanation about the phone calls continued to evolve throughout
our audit. For example, he later provided the explanation that the phone calls to the
JPMorgan executive were made to discuss a particular news article. We were unable to
corroborate this explanation, as the news article to which he referred was dated after the
first of the emails and phone calls – an indication that some other topic was under
consideration. Subsequently, in a written statement addressing the issues in our report,
the former Director asserted that he made the phone calls and emails to the JPMorgan
executive as part of his work with the McCain transition team. He provided
documentation to show that the JPMorgan executive had been under consideration for a
cabinet level post, along with a number of other candidates. We attempted to corroborate
the former Director’s explanation through an interview with the leader of the McCain
transition team, who advised that named candidates were not called as part of the process
in which the former Director was involved. In a further attempt to corroborate the former
Director’s explanation, we identified the person or company associated with each phone
number called from the former Director’s cell phone and from his direct line during the



                                                                                     Page 8
relevant time period. Except for the calls to the JPMorgan executive, there were no
phone calls to either the homes or the businesses of any of the individuals identified by
the former Director as potential candidates for political appointment, based on the listing
he provided us.

4. The Former Director Sought Employment Assistance from
   an Executive of One of the Winning Bidders.

Our review of the former Director’s voluminous email records disclosed extensive
communication with a Goldman Sachs executive, occurring after the award of the $700
million Strategic Partnership contract. While we did not identify any evidence that the
former Director was attempting to obtain employment directly with Goldman Sachs (or
with any of the winning firms), we did find 29 emails between a senior Goldman Sachs
official and Mr. Millard to assist him in his search for employment. For example, the
former Director provided his resume, bio, and six news articles to the Goldman Sachs
executive, who in turn forwarded the materials to others in the financial community.
Employment assistance provided by the Goldman Sachs executive to the former Director
included personal meetings, strategic advice, introductions to potential employers, and
help with meeting arrangements. In one email the executive wrote:

    … It was great to see you this afternoon. I spoke with [the CEO of a financial
   services firm] after our mtg. He would love to meet with you in NY. I told him
   I would forward your info when I receive it and then you can feel free to
   coordinate with his assistant at any time after that. Separately, I spoke with [ --
   ] and he confirmed for tomorrow morning. I will keep you posted on the others
   that we discussed.

The evidence of the 29 emails tends to contradict the written statement of the former
Director, in which he asserted, “ … around the time I became aware of this audit, I
became aware of a rumor that I was pursuing the Strategic Partnerships in order to
increase my chances at post-PBGC employment with large financial services firms. This
was ridiculous, as I already had numerous contacts at such firms and had worked in
senior roles at two of them in the past.”

The former Director advised us that the assistance was provided due to a “deep personal
relationship” between him and the executive. He had also previously asserted that the
executive was not actually involved in bidding for the Strategic Partnership contract.
While the executive was not listed as “key personnel” in the Goldman Sachs bid, the
former Director had requested, via email, that a subordinate provide the RFP to the
executive. Further, on the day that Strategic Partnership contracts were awarded, the
former Director sent the Goldman Sachs executive an email with the subject “Strat
partner” stating, “U guys got 700 m in private equity.” We concluded that the receipt of
employment assistance from a winning bidder raises serious ethical concerns.




                                                                                     Page 9
A Special “Thank You” to the Whistleblower

Reporting concerns about fraud, waste, or abuse to the Inspector General requires a lot of
courage. The task is even more difficult when the issues of concern are subjective,
involving questions of fairness, of impartiality, or of “appearance.” I am grateful to the
PBGC employee who first reported the questionable actions of the former Director to my
office. Disregarding concern about how well the Whistleblower Protection Act could
protect his/her identity, this loyal employee made a choice to put PBGC’s interests above
the employee’s own interest to be free from possible retaliation. That choice will help the
PBGC Board and PBGC leadership make the changes needed to maintain the public’s
trust. This employee deserves our gratitude and thanks.

THE OFFICE OF INSPECTOR GENERAL WILL CONTINUE TO EXAMINE
AREAS THAT PRESENT THE GREATEST RISKS AND PROMPTLY NOTIFY
PBGC, THE BOARD, AND CONGRESS OF ACTIONS NEEDED TO IMPROVE
EFFECTIVENESS AND MINIMIZE FRAUD, WASTE, AND ABUSE

Our office supports PBGC in its various initiatives. We are in the process of developing
a risk-based strategy that will target the highest risk areas and emphasize timely reporting
of results. To that end, we are evaluating PBGC’s implementation of its investment
policy and providing oversight for PBGC’s preparations for the potential influx of new
large defined benefit pension plans. Our work is being coordinated with the Government
Accountability Office to avoid duplication of effort and maximize accountability
coverage. In addition, we have a number of ongoing audits and reviews that directly
relate to the challenges of operating a government corporation such as PBGC. We have
also begun several actions to enhance our capacity to assist PBGC in ensuring
accountability; these actions include the recent hiring of an experienced audit manager
and high-performing criminal investigator from other Offices of Inspector General to
help us handle our increased audit and investigations workload.

The Office Of Inspector General Is Working With PBGC To Ensure
Implementation Of Outstanding Audit Recommendations.

Audit recommendations are the heart of any audit report. No matter how interesting the
findings may be, a report is not effective unless the recommendations are implemented
and the problems reported fully addressed. Last month, my office undertook a
comprehensive review of the status of outstanding audit recommendations and we
identified 130 outstanding recommendations for corrective action that have not yet been
implemented by PBGC. We noted the following:

   •   Some recommendations were quite old; for example, the need to implement an
       integrated financial management system was first reported twelve years ago, in
       1997. The issue has been included in each subsequent year’s financial statement
       audit, including the audit for FY 2008.




                                                                                    Page 10
   •   As another example of a corrective action that is long overdue, recommendations
       from an audit report issued in 2003 relate to PBGC’s Premium Accounting
       System and are not scheduled to be completed until June 2010.
   •   Progress is being made on some old recommendations, however. For example,
       our FY 2004 financial statement audit included a recommendation for the
       development of a comprehensive procedures manual for processing and
       estimating premiums – an action that is scheduled to be complete sometime this
       summer.
   •    As good news, we noted that 50 of the 130 open recommendations were issued
       within the last year – most of these are in the process of being implemented as we
       speak.
   •   Our recommendations focus on helping PBGC do its work better. About three-
       fourths of the recommendations are intended to improve PBGC’s internal controls
       or governance.

The Office of Inspector General Is Conducting a Review to Identify Vulnerabilities
and Any Needed Changes in PBGC’s Approach to Executing its Investment Policy.

Ongoing audit work is examining the strengths and weaknesses of PBCG’s approach for
executing its investment policy. As part of that review, we are also evaluating the
effectiveness of PBGC’s plan to identify and manage key risks that could affect
investment performance or limit anticipated benefits. We have already issued one report,
the interim report discussed above. That report addressed PBGC’s vulnerability to one of
those risks and raised serious questions about the integrity of the procurement process for
the Strategic Partnership contracts.

PBGC has committed to working with the Board to make important decisions, including
whether Strategic Partnerships fit into the investment approach going forward. We plan
to expedite our reporting to ensure that PBGC, the Board, and Congress have real-time
information related to our work, as decisions are being made about potential changes to
PBGC’s approach to implementation. That is, if we identify any issues that warrant
immediate attention, we will issue advisories to highlight those issues.

The final phase of our strategy involves using the results of the work mentioned above to
identify areas that warrant additional effort and reporting, based on potential risks. We
will use this information to develop a long-term plan outlining our investment-related
audit and investigative initiatives. We remain committed to protecting PBGC’s
investment portfolio over the long term.

Other Ongoing Audit and Investigative Initiatives

Our investigators have been proactive in their deterrence efforts, recognizing that the risk
of fraud or other criminal behavior increases at times of stress and change. Ongoing
activities include:




                                                                                    Page 11
•   Investigation into post-award contacts between the former Director and
    executives at companies that were awarded Strategic Partnership contracts. As
    described earlier in my testimony, our audit determined that the former Director
    had sought placement assistance in the weeks following the contract
    announcements; in part, our investigation will address the extent to which these
    conversations took place in personal emails and telephone calls. We are doing
    this work at the bipartisan request of Senators Kennedy, Baucus, Enzi, and
    Grassley.
•   Fraud Awareness briefings to several Pension Benefit Guaranty Corporation
    (PBGC) departments and Field Benefit Administration Offices throughout the
    country. We conducted these fraud briefings to educate employees and
    contractors about the roles and responsibilities of the Office of Inspector General.
    Specifically, the Office of Investigations focused on raising awareness to potential
    indications of fraud, and discussed mechanisms for reporting allegations to the
    Office of Inspector General.
•   Non-voting participation on PBGC’s Internal Control Committee. The Assistant
    Inspector General for Investigations provides insight gained through his
    experience as criminal investigator to the committee responsible for oversight and
    accountability of PBGC internal controls. Effective control systems may detect
    fraud or deliberate non-compliance with policies, regulations, or laws.
•   Distributing materials, such as our newly designed Hotline posters and periodic
    electronic Fraud Alerts, to PBGC employees and contractors and to retirees
    receiving their pensions through PBGC.

Our strategy also involves emphasizing the investigation of allegations of fraud in any
of the pension plans that PBGC takes on as a result of the potential influx of new
plans. We will be vigilant in presenting cases to the Department of Justice (DOJ) for
prosecution and participating in resulting prosecutions. We will also focus on
ensuring that PBGC officials do not inadvertently take actions that compromise
potential prosecutions. For example, we have already established a regular periodic
meeting between the Office of Inspector General and the PBGC General Counsel at
which we will discuss coordination of efforts to ensure effective deterrence. As
needed, our efforts are coordinated with the Department of Labor Office of Inspector
General and the Employee Benefits Security Administration. Further, we are
reaching out to our investigative counterparts in other federal agencies and in state
and local governments.

The Office of Inspector General is Taking Action to Best Position Itself for
Future Change.

The issues under discussion today have presented our office with resource challenges.
We are a small Inspector General office, especially when considered in relation to the
large dollar amounts at stake and the sophistication of the businesses (including Wall
Street investment firms) with whom PBGC deals. Accordingly, we are making the
most of the resources provided to our office.



                                                                                Page 12
       •   We contract for assistance when we do not have enough staff or the necessary
           technical background to address important questions. For example, last week
           we issued a discussion draft report on PBGC’s management of its securities
           lending program, a complex issue. To meet our objectives in this review, we
           obtained contract assistance from a well-respected financial services advisor
           to perform the detailed and substantive review.

       •   We are in the process of hiring up to three new audit managers. Bringing
           high-caliber leaders on board is critical so we can deploy them to track the
           potential influx of defined benefit plans and deal with the increased workload
           of complaints that is likely to occur as we continue to publicize our Hotline.

       •   In the very near future, we will begin conducting systematic outreach with
           Congressional and other stakeholders, including the staff of the Special
           Committee on Aging and the staffs of our authorization and appropriations
           committees in the House and Senate. We have been pleased with the support
           shown to our office by the committees and we intend to keep the lines of
           communication open. We know that PBGC has many other stakeholders --
           beneficiaries in terminated pension plans, participants in ongoing plans that
           PBGC insures, the employers who pay premiums, and the policymakers who
           oversee the federal insurance programs. We plan to reach out to these
           important stakeholders, as well.

       •   In response to upcoming challenges, our office is updating its comprehensive
           strategic plan so that our audits and investigations are more clearly tied to an
           overarching strategy. This strategy will reflect and support PBGC’s strategic
           goals of safeguarding the federal pension insurance system, providing
           exceptional service to customers and stakeholders, and exercising effective
           and efficient stewardship of PBGC resources.

       •   Finally, we are developing new reporting formats that will allow us to
           expeditiously issue the results of our work so that action can be taken in a
           timely manner. We are also focused on presenting our work in user-friendly,
           understandable manner to maximize the impact of our findings and
           recommendations. Additionally, we are making it simple to learn about our
           new reports and written products as they are issued. Subscribers to our New
           Reports Notification feature, displayed on our website at www.oig.pbgc.gov
           can be alerted, via email, whenever we post a new report.

CONCLUSION

The coming months will bring tremendous challenges and opportunities to PBGC as it
manages its investment portfolio and works with the Board to make important decisions,
including whether Strategic Partnerships fit into the investment approach going forward.
Further challenges are posed by the current economic situation and concerns that some
large defined benefit plans may be on the brink of financial distress. We are in complete


                                                                                    Page 13
alignment with the Committee’s commitment to ensure that PBGC management is taking
steps to strategically prepare the Corporation for the possible influx of such plans and
their participants.

PBGC will need sustained efforts to ensure that integrity, accountability, efficiency, and
effectiveness are maintained as it moves forward. To that end, we acknowledge current
PBGC leadership, including the acting Director, for their ongoing contingency planning
and the focus on ensuring that PBGC core functions - insurance programs and benefits
administration - have the necessary resources including staff, budget and information
technology to address workload associated with the potential wave of pension plan
trusteeships in the near future. We are focused on assisting PBGC officials in their
efforts by identifying vulnerabilities and making recommendations for improvements,
where needed.

It is important that we ensure accountability to help restore the trust that may have been
damaged through the misconduct of the former Director. As PBGC moves forward, it
has a unique opportunity to reconsider its approach to implementing the investment
policy and make any needed adjustments. Further, if it can meet the challenge of its
increased workload with efficiency, transparency, and integrity, PBGC has an
opportunity to reassure the American people about the basic soundness of our Nation’s
economy. We are committed to helping PBGC do just that.

That concludes my statement, Mr. Chairman. Once again, I thank the Committee for its
support of our efforts. I will be happy to answer any questions you or other Members of
the Committee may have.




                                                                                    Page 14
